APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(September 23, 2020) . . . . . . . . . . App. 1
Appendix B Order on Defendants’ Motions for
Summary Judgment in the United
States District Southern District of
Florida
(October 17, 2019) . . . . . . . . . . . . App. 21
Appendix C Final Judgment in the United States
District Southern District of Florida
(October 17, 2019) . . . . . . . . . . . . App. 38
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Eleventh Circuit
(November 18, 2020) . . . . . . . . . . App. 40

App. 1

APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14530
Non-Argument Calendar
D.C. Docket No. 2:18-cv-14367-DMM
[Filed: September 23, 2020]
__________________________________________
DUDLEY TEEL,
)
)
Plaintiff-Appellant,
)
)
versus
)
)
DEPUTY SHERIFF JONATHAN LOZADA, )
in his individual capacity,
)
SHERIFF DERYL LOAR,
)
in his individual and official capacities,
)
)
Defendants-Appellees.
)
__________________________________________)
Appeal from the United States District Court
for the Southern District of Florida
(September 23, 2020)

App. 2
Before MARTIN, ROSENBAUM and JILL PRYOR,
Circuit Judges.
PER CURIAM:
Officer Jonathan Lozada of the Indian River County
Sheriff’s Office responded to a mental health crisis call
at Dr. Dudley Teel’s residence. Dr. Teel’s wife, Susan,
was threatening to kill herself. After a brief encounter,
Officer Lozada fatally shot Mrs. Teel. Dr. Teel, as the
personal representative of his wife’s estate, brought a
claim under 42 U.S.C. § 1983 against Officer Lozada for
excessive use of force. He brought a Monell claim1
against Sheriff Deryl Loar and state-law wrongful
death claims against both defendants.
Dr. Teel now appeals the district court’s order
granting summary judgment in favor of Officer Lozada
and Sheriff Loar on the ground that Officer Lozada’s
use of force was reasonable under the circumstances.
Viewing the facts in the light most favorable to Dr.
Teel, we disagree with that determination. We hold
that the circumstances of Officer Lozada’s encounter
with Mrs. Teel violated Mrs. Teel’s clearly established
constitutional right to be free from the excessive use of
force. We therefore reverse the district court’s
judgment in part, vacate it in part, and remand for
further proceedings.

1

See Monell v. Dep’t of Soc. Serv., 436 U.S. 658 (1978).

App. 3
I. FACTUAL BACKGROUND
The facts elicited during discovery are as follows.2
The Indian River County Sheriff’s Office dispatch
notified officers that a 911 call came through describing
a person—later determined to be Mrs. Teel—who had
“possibly cut herself,” was “under the influence of
alcohol,” and had a knife. Doc. 39-4 at 2–3.3 She had in
fact cut herself: Dr. Teel, an emergency medical doctor,
testified that he discovered his wife in their master
bedroom, where she had slit both of her wrists, “was
bleeding out,” and needed to go to the hospital. Doc. 4610 at 78.
Officer Samuel Earman, on patrol in the area,
responded as the primary officer en route, and Officer
Lozada, also on patrol at the time, responded that he
would provide backup. Officer Lozada, however, arrived
first to the Teels’ home, and he did not wait for Officer
Earman to arrive. (Officer Earman would arrive
minutes after Officer Lozada and hear gunshots from
the threshold of the house.) Officer Lozada knocked on
the front door. When no one answered, he opened the
front door, which was unlocked, and saw Dr. Teel

2

On review of a motion for summary judgment, we view the facts
in the light most favorable to the plaintiff. Lee v. Ferraro, 284 F.3d
1188, 1190 (11th Cir. 2002). In recounting the facts, we note where
facts are disputed and at this stage resolve the disputes in Dr.
Teel’s favor. We emphasize, however, “that the facts, as accepted
at the summary judgment stage of the proceedings, may not be the
actual facts of the case.” Priester v. City of Riviera Beach, 208 F.3d
919, 925 n.3 (11th Cir. 2000) (internal quotation marks omitted).
3

“Doc.” numbers refer to the district court’s docket entries.

App. 4
walking down the stairs towards the door. He and Dr.
Teel spoke for about a minute. Dr. Teel told Officer
Lozada that his wife was upstairs, was trying to kill
herself, was under the influence of narcotics and/or
alcohol, and was armed with a knife that Dr. Teel had
unsuccessfully attempted to take away. Officer Lozada
observed what he believed to be blood on Dr. Teel’s
shirt. He understood that Mrs. Teel had not tried to
harm Dr. Teel. Officer Lozada concedes that before
encountering Mrs. Teel, he had no objective facts
indicating that she was a danger to anyone other than
herself.
Officer Lozada then entered the home, told Dr. Teel
to stay downstairs, and climbed the stairs toward the
master bedroom. As Officer Lozada advanced up the
stairs, he drew his gun and held it to his chest.
When Officer Lozada reached a sitting room at the
top of the stairs, he saw Mrs. Teel in the next room, the
master bedroom, wearing a bathrobe and lying quietly
on a canopy bed with her feet dangling from it.
Between Officer Lozada and Mrs. Teel was the doorway
to the bedroom, a chest at the foot of the bed, and most
of the bed, which had large round columns supporting
the canopy. Officer Lozada paused for 2 to 3 seconds at
the top of the stairs and then walked to the doorway of
the bedroom. He observed that Mrs. Teel’s hands were
tucked behind her back. At this point, Officer Lozada
testified, he still knew of no fact suggesting that Mrs.
Teel would present a threat to anyone but herself.

App. 5
Officer Lozada did not observe any blood on Mrs. Teel’s
body.4
Officer Lozada announced himself and said in an
assertive tone, “Susan, Sheriff’s Office. Let me see your
hands.” Doc. 29-1 at 10. Mrs. Teel complied with the
order. She brought both hands from behind her back,
revealing a kitchen knife with an eight-inch blade in
her left hand. Mrs. Teel was 60 years old, 5’2” tall, and
120 pounds. She stood from the bed and, standing with
the canopy bed between her and officer Lozada, held
the knife with the blade pointed down over her head.
Officer Lozada took “two or three” steps inside the

4

Officer Lozada testified that nothing about the scene he
encountered upstairs indicated that Mrs. Teel was in physical
distress. Credibility determinations are for a jury to make, but we
cannot help but notice that some of Officer Lozada’s statements
seem inconsistent with the rest of the evidence, including his own
version of the events. Mrs. Teel had cut her wrists and neck and
was bleeding so severely that her husband, an emergency medical
doctor, believed she might die from blood loss. An Indian County
Sheriff’s Office investigator who was at the scene immediately
following the shooting observed that “blood was all over the rug
and couch” in the sitting room, Doc. 39-5 at 3, a fact that is
consistent with Dr. Teel’s recollection that after cutting herself,
Mrs. Teel ran from the bedroom to the sitting room couch, where
she sat while he called for help. Officer Lozada testified that he
observed the couch as he walked through the sitting room en route
to the bedroom. He shot Mrs. Teel in the bedroom and possibly
again in the doorway between the bedroom and sitting room, and
she fell in the doorway, making it exceptionally unlikely that the
sitting room couch was covered with blood from the shooting alone.
Moreover, Officer Lozada testified that he did not look at Mrs.
Teel’s arms during the encounter and so did not observe blood on
them, despite also testifying that Mrs. Teel walked towards him
holding a knife over her head.

App. 6
bedroom. Doc. 39-1 at 112. Mrs. Teel remained on the
other side of the bed from Officer Lozada for 8 to 10
seconds. During that time, he gave her no instruction
or warning. He said nothing to her at all.
After the 8 to 10 second pause, Mrs. Teel began
walking “gradual[ly]” in Officer Lozada’s direction. Id.
at 102. The sequence of events that occurred next is not
precisely clear, but it is undisputed that the events
happened quickly. As Mrs. Teel was walking around
the bed, she said “Fuck you. Kill me.” Doc. 39-2:17.
Officer Lozada then pointed his gun at Mrs. Teel. He
also took a step back and radioed emergency traffic
reporting that Mrs. Teel had a knife. Mrs. Teel said,
“Come on, just do it.” Id. at 9, 53. Officer Lozada then
said to Mrs. Teel, “don’t come.” Doc. 39-4 at 3. By this
point, only four minutes had passed since Officer
Lozada’s arrival at the Teel residence.
Mrs. Teel never made a sudden movement or ran or
lunged at Officer Lozada. Nor did she point the knife in
his direction. Officer Lozada never instructed Mrs. Teel
to drop the knife, never clearly instructed her to stop
moving, and never warned that he would shoot her if
she failed to comply. When asked why he did not issue
warnings or tell Mrs. Teel to drop the knife or stop
moving, Officer Lozada testified that he “was on the
radio with dispatch to let them know with the
emergency traffic and that she was armed,” and “by the
time [he] was doing that, [he] looked up” and Mrs. Teel
“was right there.” Doc. 39-1 at 106. Officer Lozada
admitted that he had the option of fully retreating,
leaving the bedroom and even walking down the stairs
if Mrs. Teel continued to advance; he chose not to.

App. 7
Instead, Officer Lozada fired his gun at Mrs. Teel.
It is not clear from the record how far Officer Lozada
was from Mrs. Teel at the time he shot her. Officer
Lozada testified to various distances, ranging from 6 to
10 feet. Because on review of summary judgment
orders we must view the facts in the light most
favorable to the plaintiff, we accept the longer of these
distances. Officer Lozada could tell his bullet hit Mrs.
Teel because her body shuddered. He testified that she
kept walking in his direction at the “same speed,” a
gradual pace. Id. at 115. Officer Lozada stepped back
again. Two seconds after he fired the first shot, he fired
again. Two seconds after that, when Mrs. Teel did not
stop moving in his direction, Officer Lozada fired at her
a third time. Mrs. Teel fell. In addition to his gun,
Officer Lozada was armed with pepper spray and a
taser, yet he used neither. He testified that since he
had already shown Mrs. Teel his gun, he was “not
going to deescalate to non-lethal.” Id. at 124.
Officer Lozada radioed for emergency medical
services, telling dispatch that shots had been fired.
Four minutes had passed since Officer Lozada arrived
at the residence. Officer Earman had by that point
entered the home; he was at the base of the stairs
yelling Officer Lozada’s name. Mrs. Teel’s body was
lying in the doorway of the bedroom. Officers and Dr.
Teel attempted to render aid, but, approximately nine
minutes after he shot her, Mrs. Teel succumbed to her
wounds. The Sheriff’s Office’s investigation revealed
that Officer Lozada had shot Mrs. Teel once in the
chest and twice in the abdomen.

App. 8
Dr. Teel sued Officer Lozada under 42 U.S.C. § 1983
for excessive force and under Florida’s Wrongful Death
Act. He also sued Sheriff Loar of the Indian River
County Sheriff’s Office under § 1983 and Monell v.
Department of Social Services, 436 U.S. 658 (1978), for
failing to adequately train, supervise, or direct deputy
sheriffs in citizen encounters and for violation of the
Fourteenth Amendment’s right to due process. He sued
Sheriff Loar under Florida’s Wrongful Death Act as
well.
At the close of discovery, Officer Lozada and Sheriff
Loar moved for summary judgment. The district court
granted their motions. As to the excessive force claim,
the district court determined that Officer Lozada’s use
of deadly force was constitutionally permissible
because Mrs. Teel walked toward him armed with a
knife and was “relatively close” to Officer Lozada. Doc.
59 at 8. Finding no constitutional violation, the district
court did not determine whether Mrs. Teel’s clearly
established rights were violated. Because the court had
found that Officer Lozada’s use of force was not
excessive, it also granted summary judgment to Officer
Lozada and Sheriff Loar on the remaining claims.
This is Dr. Teel’s appeal.
II. STANDARD OF REVIEW
We review de novo a grant of summary judgment
based on qualified immunity. Cantu v. City of Dothan,
No. 18-15071, __ F.3d __, 2020 WL 5270645, at *8 (11th
Cir. Sept. 3, 2020). “When considering a motion for
summary judgment, including one asserting qualified
immunity, courts must construe the facts and draw all

App. 9
inferences in the light most favorable to the nonmoving
party and when conflicts arise between the facts
evidenced by the parties, they must credit the
nonmoving party’s version.” Feliciano v. City of Miami
Beach, 707 F.3d 1244, 1252 (11th Cir. 2013) (alteration
adopted) (internal quotation marks omitted).
“[C]redibility determinations and the weighing of
evidence are jury functions, not those of a judge.” Id.
(internal quotation marks omitted).
“Summary judgment is appropriate if the evidence
before the court shows that there is no genuine issue as
to any material fact and that the moving party is
entitled to a judgment as a matter of law.” McCullough
v. Antolini, 559 F.3d 1201, 1204 (11th Cir. 2009)
(internal quotation marks omitted). Conversely, “[e]ven
where the parties agree on the facts, if reasonable
minds might differ on the inferences arising from
undisputed facts, then the court should deny summary
judgment.” Glasscox v. Argo, 903 F.3d 1207, 1212 (11th
Cir. 2018) (internal quotation marks omitted).
III. DISCUSSION
“A government official asserting a qualified
immunity defense bears the initial burden of showing
he was acting within his discretionary authority.”
Glasscox, 903 F.3d at 1213 (internal quotation marks
omitted). After he makes this showing—and here, it is
undisputed that Officer Lozada was acting within his
discretionary authority—the burden shifts to the
plaintiff to show that “(1) the defendant violated a
constitutional right, and (2) this right was clearly
established at the time of the alleged violation.”
Holloman ex rel. Holloman v. Harland, 370 F.3d 1252,

App. 10
1264 (11th Cir. 2004). Viewing the evidence in the light
most favorable to Dr. Teel and drawing all reasonable
inferences in his favor, we conclude that Dr. Teel met
his burden to show that Officer Lozada violated Mrs.
Teel’s constitutional right to be free from the excessive
use of force. We also conclude that the law was clearly
established at the time of the encounter that the force
Officer Lozada employed was excessive. The district
court erred in concluding otherwise.
The district court’s adjudication of each of Dr. Teel’s
remaining claims hinged on its determination that
Officer Lozada did not use excessive force. Because we
reject that conclusion, we vacate the court’s judgment
on Dr. Teel’s other claims against Officer Lozada and
on his claims against Sheriff Loar and remand for
further proceedings.5
A. The Constitutional Violation
The Fourth Amendment’s guarantee against
unreasonable searches and seizures includes the right
to be free from the excessive use of force. U.S. Const.
amend. IV, see Graham v. Connor, 490 U.S. 386,
394–95 (1989). “In determining whether [an officer’s]
force was reasonable, we must determine whether a
5

“The matter of what questions may be taken up and resolved for
the first time on appeal is one left primarily to [our] discretion, . . .
to be exercised on the facts of individual cases.” Singleton v. Wulft,
428 U.S. 106, 121 (1976); see Clark v. Coats & Clark, Inc., 929 F.2d
604, 609 (11th Cir. 1991) (electing not to consider, in the first
instance, whether a party had met its summary judgment burden).
Although there are circumstances in which we are “justified in
resolving an issue not passed on below,” we do not think this is
such a case. Singleton, 428 U.S. at 121.

App. 11
reasonable officer would believe that this level of force
is necessary in the situation at hand.” Mercado v. City
of Orlando, 407 F.3d 1152, 1157 (11th Cir. 2005)
(internal quotation marks omitted). We ascertain the
objective reasonableness of a seizure by balancing the
“nature and quality of the intrusion” against the
“governmental interest at stake.” Graham, 490 U.S. at
396 (internal quotation marks omitted).
Turning to the nature and quality of the intrusion
in this case, we recognize that “[t]he intrusiveness of a
seizure by means of deadly force is unmatched.”
Tennessee v. Garner, 471 U.S. 1, 9 (1985). Officer
Lozada’s gunshots were fatal. Thus, we weigh heavily
the nature and quality of the intrusion and next
consider the governmental interest at stake.
Graham generally requires that we weigh the
governmental interest at stake by examining the
totality of the circumstances, including “the severity of
the crime at issue, whether the suspect poses an
immediate threat to the safety of the officers or others,
and whether [she] is actively resisting arrest or
attempting to evade arrest by flight,” keeping in mind
that the reasonableness of a “particular use of force
must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Graham, 490 U.S. at 396. The use of
deadly force is reasonable only if “the suspect poses a
significant threat of death or serious physical injury to
the officer or others.” Garner, 471 U.S. at 3.
As in Mercado, “[b]ecause this situation does not
involve a criminal arrest, our facts do not fit neatly
within the Graham framework.” 407 F.3d at 1157.

App. 12
Indeed, “because Florida does not recognize attempted
suicide as a crime, it is impossible for this [C]ourt to
measure the ‘severity of the crime at issue.’” Id.
(citation omitted) (quoting Graham, 490 U.S. at 396).
We have little trouble, then, concluding that this
Graham factor weighs in favor of Dr. Teel. See id. at
1157–58.
We next consider the extent to which Mrs. Teel
placed herself or others in danger. See id. Mrs. Teel
indisputably was a threat to herself, “and Florida law
recognizes a ‘compelling interest in preventing
suicide.’” Id. (quoting Krischer v. McIver, 697 So. 2d 97,
103 (Fla. 1997)). Critically, however, we conclude that
there is a genuine dispute as to whether Mrs. Teel
posed a significant, immediate threat to Officer
Lozada’s safety. Mrs. Teel was armed with a knife and
walking in his direction. These two facts drove the
district court to conclude that Officer Lozada’s use of
force was constitutional.6 But the district court failed to
sufficiently account for additional material facts.
Officer Lozada understood that Mrs. Teel had not
threatened her husband or anyone else. She did not
verbally threaten Officer Lozada and was not pointing
the knife at him. See Tolan v. Cotton, 572 U.S. 650, 658
(2014) (rejecting court’s determination that plaintiff’s
admonition to “Get your fucking hands off my mom”
was a verbal threat, explaining that “a jury could
reasonably infer that his words, in context, did not
amount to a statement of intent to inflict harm,”
especially given testimony that plaintiff “was not
6

The district court also relied in part on the fact that Mrs. Teel
told Officer Lozada “Come on, do it.” Doc. 59 at 8.

App. 13
screaming”). When he shot her without any warning,
Mrs. Teel was 10 feet away. See Mercado, 407 F.3d at
1154–55, 1160–61 (concluding that an officer who fired
a Sage Launcher from six feet at a suicidal man
pointing a knife at his chest violated the man’s clearly
established Fourth Amendment right to be free from
excessive force); see also Perez v. Suszczynski, 809 F.3d
1213, 1220 (11th Cir. 2016) (explaining that “guns are
different when it comes to the level and immediacy of
the threat—for instance, a person standing six feet
away from an officer with a knife may present a
different threat than a person six feet away with a
gun”). Her walk was gradual, and she never picked up
pace or made any sudden movement.7 She was
diminutive in size.
Perhaps most tellingly, Officer Lozada also was
“aware [and conceded] that alternative actions”—
retreating into the sitting room or down the stairs to
meet up with Officer Earman or using a non-lethal
method to subdue Mrs. Teel—“were available means of
resolving the situation.” Mercado, 407 F.3d at 1158. A
reasonable officer in his shoes would have been aware
of the same alternatives. Yet Officer Lozada did none
of these things. His explanation was that since he had

7

We reject Officer Lozada’s argument that Mrs. Teel was
approaching him “in a threatening manner” Appellee’s Br. at 27,
because we are here on an appeal from a summary judgment order
and a jury reasonably could conclude otherwise considering the
totality of the circumstances. It is true that Officer Lozada testified
he was afraid for his life. But Officer Lozada’s beliefs about his “life
being in danger are just that—his beliefs. They are not ‘facts and
circumstances’ that we may rely on to objectively determine the
reasonableness of his actions.” Perez, 809 F.3d at 1219–20.

App. 14
drawn his gun—on his way up the stairs, before he had
any reason to believe Mrs. Teel was a danger to anyone
but herself—he would not de-escalate to less-thanlethal force. When we view the evidence in the light
most favorable to Dr. Teel, we conclude that this factor
weighs against Officer Lozada.8
Finally, we consider that Mrs. Teel “was not actively
resisting arrest, and there is no evidence that [she]
struggled with” Officer Lozada. Id. at 1157. In
Mercado, we found that this factor weighed in the
plaintiff’s favor even though the officer ordered the
plaintiff to drop the knife he was aiming at himself. We
explained that “[a]rguably, Mercado did not have time
to obey [the officer’s] order . . . because [the officer]
discharged the [weapon] within seconds of making this
request.” Id. Here, Mrs. Teel complied with Officer
Lozada’s order that she show her hands. She showed
him a knife, but Officer Lozada never ordered her to
drop it. He never ordered her to stop where she was or

8

Shaw v. City of Selma, 884 F.3d 1093 (11th Cir. 2018), which the
district court cited in support of its decision, is readily
distinguishable. There, officers responded to a 911 call about a
man carrying a hatchet. Id. at 1096–97. The man was well-known
to at least one of the officers for aggressive behavior, and the
officers instructed him to drop his weapon at least 26 times. Id. at
1097–98. The man was less than five feet from an officer and
approaching when the officer shot him once, and he died from his
injury. Id. Here, viewing the evidence in the light most favorable
to Dr. Teel, Officer Lozada had no prior information that Mrs. Teel
may be aggressive and yet he shot her three times, without giving
her any warning, from more than four times the distance in Shaw.
The unpublished decisions the district court cited are also
readily distinguishable and, in any event, do not bind us here.

App. 15
put her hands down, despite having 10 seconds to do so
while she stood from the bed and paused. And he failed
to issue any warning after she began walking in his
direction; instead he interrupted his dialogue with her
to use his radio. The Fourth Amendment does not
require an officer to issue a warning if he lacks time to
do so, but a jury could infer that Officer Lozada had
time, yet failed, to warn Mrs. Teel. See Vaughan v. Cox,
343 F.3d 1323, 1330–31 (11th Cir. 2003). This Graham
factor also weighs against Officer Lozada.
This case “is not one in which deadly force was used
to prevent the escape of a suspect who had committed
a violent or otherwise serious crime or who might harm
others if not apprehended.” Cantu, 2020 WL 5270645,
at *9. Rather, although Mrs. Teel had committed no
crime, and was not an immediate threat to him, Officer
Lozada—without issuing a command or warning—shot
her three times, killing her. Viewing the evidence and,
critically to this case, drawing all inferences in favor of
Dr. Teel, we conclude that “[a]ll of the factors
articulated in Graham weigh in favor of” Dr. Teel,
Mercado, 407 F.3d at 1157,9 and so Officer Lozada used
excessive force against Mrs. Teel. The district court
erred in concluding otherwise.

9

Officer Lozada suggests that he had probable cause to take Mrs.
Teel into custody for involuntary commitment because of her
suicide attempt and that Mrs. Teel resisted his efforts. The same
could be said of the plaintiff and officers in Mercado, and yet it did
not affect our analysis in that case. We follow Mercado here.

App. 16
B. Clearly Established Law
Officer Lozada argues that even if he used excessive
force, he did not violate clearly established law.
Specifically, he argues that no factually similar case
clearly established that his conduct was
unconstitutional.10 Even if he is correct, summary
judgment was unwarranted.
In general, “[t]o determine whether a right was
clearly established, we look to binding decisions of the
Supreme Court of the United States, this Court, and
the highest court of the relevant state (here, Florida).”
Glasscox, 903 F.3d at 1217. We ask whether it would be
“sufficiently clear that every reasonable official would
understand that what he is doing is unlawful.” District
of Columbia v. Wesby, 128 S. Ct. 577, 589 (2018)
(internal quotation marks omitted). We undertake this
inquiry “in light of the specific context of the case, not
as a broad general proposition.” Lee v. Ferraro, 284
F.3d 1188, 1194 (11th Cir. 2002) (internal quotation
marks omitted). “To be clearly established, a legal
principle must be ‘settled law,’ meaning that it is not
merely suggested, but rather ‘is dictated by controlling
authority or a robust consensus of cases of persuasive

10

Office Lozada also argues that “it was not clearly established
that Lozada had to give a warning before using deadly force.”
Appellee’s Br. at 23. He is right that an officer is not required to
give a warning under all circumstances; however, it is clearly
established that an officer must give a warning before using deadly
force when a warning is feasible. See Cantu, 2020 WL 5270645, at
*9 (citing Tennessee v. Garner, 471 U.S. 1, 11–12 (1985)). Here, as
explained above, a jury could reasonably find that it was feasible
for Officer Lozada to give a warning.

App. 17
authority.’” Glasscox, 903 F.3d at 1217 (quoting Wesby,
138 S. Ct. at 589–90). “Close similarity of the facts
between the cases is ‘especially important in the
Fourth Amendment context, where the Court has
recognized that it is sometimes difficult for an officer to
determine how the relevant legal doctrine, here
excessive force, will apply to the factual situation the
officer confronts.’” Cantu, 2020 WL 5270645, at *12
(quoting Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)).
Importantly, however, “the rule requiring
particularized case law to establish clearly the law in
excessive force cases” has a “narrow exception,” Priester
v. City of Riviera Beach, 208 F.3d 919, 926 (11th Cir.
2000), known as the “obvious clarity” rule, Oliver v.
Fiorino, 586 F.3d 898, 907 (11th Cir. 2009). Under this
exception, “[e]ven without a close fit,” a plaintiff “can
clear the clearly established law hurdle and defeat a
qualified immunity defense by showing that the
official’s conduct lies so obviously at the very core of
what the Fourth Amendment prohibits that the
unlawfulness of the conduct was readily apparent to
the official.” Cantu, 2020 WL 5270645, at *12 (internal
quotation marks omitted). “To come within the narrow
exception, a plaintiff must show that the official’s
conduct was so far beyond the hazy border between
excessive and acceptable force that the official had to
know he was violating the Constitution even without
caselaw on point.” Priester, 208 F.3d at 926 (alteration
adopted) (internal quotation marks omitted). “This test
entails determining whether application of the
excessive force standard would inevitably lead every
reasonable officer in the Defendant[’s] position to

App. 18
conclude the force was unlawful.” Id. (alterations
adopted) (internal quotation marks omitted).
Under the unique circumstances here, it would be
obviously clear to any reasonable officer that the
display of force was excessive. As in Mercado, when the
evidence is viewed and inferences are drawn in favor of
Dr. Teel, “this is one of the cases that lie so obviously at
the very core of what the Fourth Amendment prohibits
that the unlawfulness of the conduct was readily
apparent to the official, notwithstanding the lack of
case law.” Mercado, 407 F.3d at 1160 (internal
quotation marks omitted). “We have repeatedly held
that police officers cannot use force that is wholly
unnecessary to any legitimate law enforcement
purpose.” Id. (internal quotation marks omitted).
Officer Lozada’s use of force was wholly
unnecessary to any legitimate purpose here. As we
have explained, Mrs. Teel was not suspected of
committing any crime. See Cantu, 2020 WL 5270645, at
*14. She was suicidal; the purpose of the family’s 911
call was to keep her alive, and that should have been
the purpose of Officer Lozada’s interaction with her
given his testimony that he believed her to be a threat
only to herself. See Mercado, 407 F.3d at 1160. Yet
Officer Lozada drew his gun even before he
encountered Mrs. Teel, pointed the gun at her before
she came near him, and fired at her without warning.
Mrs. Teel was not pointing the knife at Officer Lozada
or charging at him. By his own testimony she was
coming toward him slowly, and he had the opportunity
to retreat beyond her reach but simply chose to shoot
her instead. Moreover, viewing the evidence in the light

App. 19
most favorable to Dr. Teel, Officer Lozada had time to
warn Mrs. Teel, or even to direct her clearly to disarm
herself but failed to do so. See Cantu, 2020 WL
5270645, at *14. Given these facts, we conclude that
Officer Lozada did not need “case law to know that by
intentionally shooting [Mrs. Teel three times], he was
violating [her] Fourth Amendment rights.” Mercado,
407 F.3d at 1160.
Officer Lozada notes that he was trained on a “21foot rule scenario,” in which a charging attacker with
a knife could cover 21 feet in the time it would take to
draw a firearm. Doc. 38-1 at 120–21. He suggests that
it cannot be clearly established that the use of a
firearm within the range of 21 feet would be excessive
force. Even assuming the rationale for this 21-foot rule
is accurate, it is inapplicable here. Officer Lozada
testified that in the training scenario, the person
armed with a knife is “running towards” the officer. Id.
at 131. Mrs. Teel, who was bleeding profusely from cuts
in her arms and neck, was walking gradually—not
running—toward Officer Lozada, so any conclusions we
could draw about a charging assailant do not apply
here.
In this case, “[q]ualified immunity does not apply at
the summary judgment stage given the light in which
we must view the evidence now.” Cantu, 2020 WL
5270645, at *14. Although Officer Lozada “may yet
prevail on [qualified immunity] grounds at or after trial
on a motion for a judgment as a matter of law,” Cottrell
v. Caldwell, 85 F.3d 1480, 1487 (11th Cir. 1996)
(internal quotation marks omitted), Dr. Teel is entitled
to a trial on his excessive force claim.

App. 20
IV. CONCLUSION
Taking the facts in the light most favorable to Dr.
Teel, a reasonable jury could find that Officer Lozada
violated Mrs. Teel’s clearly established constitutional
right to be free from the excessive use of force. Officer
Lozada therefore is not entitled to summary judgment
based on qualified immunity. We reverse the district
court’s judgment in this respect. Our decision on Dr.
Teel’s Fourth Amendment excessive force claim
undermines the district court’s reasoning for rejecting
his remaining claims, but we decline to address
alternative arguments as to those claims in the first
instance. We vacate the district court’s judgment as to
those claims. This case is remanded for further
proceedings.
REVERSED IN PART, VACATED IN PART,
AND REMANDED.

App. 21

APPENDIX B
UNITED STATES DISTRICT
SOUTHERN DISTRICT OF FLORIDA
Case No. 18-14367-CIV-MIDDLEBROOKS/
BRANNON
[Filed: October 17, 2019]
_______________________________________
DUDLEY TEEL, as Personal
)
Representative of the Estate of
)
SUSAN TEEL, deceased,
)
)
Plaintiff,
)
)
v.
)
)
DEPUTY SHERIFF JONATHAN
)
LOZADA, in his individual capacity,
)
and SHERIFF DERYL LOAR, in his
)
individual and official capacities,
)
)
Defendants.
)
_______________________________________)
ORDER ON DEFENDANTS’ MOTIONS FOR
SUMMARY JUDGMENT
THIS CAUSE comes before the Court on
Defendants’ Motions for Summary Judgment. On
August 16, 2019, Defendant Deputy Sheriff Jonathan
Lozada (Defendant Lozada), in his individual capacity,
filed a Motion for Summary Judgment (DE 29) as to

App. 22
Counts I and IV of Plaintiff Dudley Teel’s (“Plaintiff”)
Complaint (DE 1). This Motion became fully ripe on
September 12, 2019. (DE 43). On September 6, 2019,
Defendant Deryl Loar (“Defendant Loar”), in his official
capacity as Sheriff of Indian River County,1 filed a
Motion for Summary Judgment (DE 40) as to Counts II
and III of Plaintiff’s Complaint. This Motion became
fully ripe on September 27, 2019. (DE 50).
BACKGROUND
This case is about the fatal shooting of Susan Teel
(“Mrs. Teel”) by Defendant Lozada. On the evening of
July 26, 2017, Mrs. Teel’s daughter called 911 stating
that her mother had attempted suicide. (DE 29 at ¶ 1,
5, 6). The dispatcher announced over the radio that
Mrs. Teel had possibly cut herself and was under the
influence of alcohol. (DE 29 at ¶6). Defendant Lozada,
who was on patrol at that time, responded to this
dispatch. (DE 29 at ¶ 7).
When Defendant arrived at the Teel residence, he
spoke briefly with Mrs. Teel’s husband, Dr. Dudley
Teel, while standing in the doorway of their home. (DE
29 at ¶ 8). Dr. Teel explained that Mrs. Teel was
upstairs and was trying to kill herself with a knife. (DE
29 at ¶ 10). Defendant noticed that there was fresh
blood on Dr. Teel’s clothing. (DE 29 at ¶ 9).

1

Despite the style stating that Sheriff Loar is named in both his
individual and official capacities, the substantive allegations
contained within the Complaint indicate that he is named in his
official capacity only. (DE 1 at ¶¶ 13, 68)

App. 23
Upon entering the house, before heading upstairs,
Defendant drew his gun. Once Defendant reached the
top of the stairs, Defendant saw Mrs. Teel. (DE 29 at
¶ 11). Mrs. Teel was wearing a large red bathrobe and
laying on the bed in the master bedroom. (DE 29 at
¶ 12). While standing at the threshold of Mrs. Teel’s
bedroom, Defendant called out “Sheriff’s Office, let me
see your hands.” (DE 29 at 13, citing Lozada Deposition
110:25-111:1). Defendant then took two or three steps
into the bedroom. (DE 39 ¶ 13(b), citing Lozada
Deposition 110:17-111:11).
Once Mrs. Teel arose from the bed, Defendant saw
that Mrs. Teel was holding a knife. (DE 29 at ¶ 14).
Mrs. Teel held the knife in the air “pointed down over
her own head.” (DE 39 at ¶ 14).
Mrs. Teel began walking towards Defendant
Lozada. (DE 29 ¶ 14). In response, Defendant took a
step backwards. (Lozada Deposition 113:12-13). As
Mrs. Teel walked, she said “Fuck you. Kill me.” (DE 29
¶ 14). By this point, Defendant had aimed his gun at
Mrs. Teel. (DE 29 at ¶ 15). Defendant Lozada got on his
radio and said “Indian River, she’s got a knife. Give me
11330” (emergency traffic). (DE 29 at ¶ 15). Ms. Teel
continued to “take steps towards” Defendant and said
“Come on, just do it.” (DE 29 at ¶ 15, 16).
Defendant fired his gun at Mrs. Teel and hit her.
(DE 29 at ¶ 16). Mrs. Teel continued towards
Defendant Lozada and he fired again, hitting Mrs. Teel
again. (DE 29 at ¶ 16). Defendant then backed up into
the doorway of the master bedroom and out into an
adjacent sitting room located at the top of the stairs.
(DE 29 at ¶ 16). Mrs. Teel continued to walk towards

App. 24
Defendant Lozada with the knife. (DE 29 at ¶ 16).
There, Defendant Lozada shot Mrs. Teel for the third
and final time. (DE 29 at ¶ 16). Mrs. Teel collapsed in
the doorway, where she died. (DE 29 at ¶ 16; DE 39 at
¶ 16).
Defendant Lozada at no point told Mrs. Teel to drop
her knife or warned her that he would use deadly force
against her. (DE 39 at ¶ 16). Defendant Lozada had
non-lethal weapons with him at the time, including
pepper spray and a taser gun. (DE 39 at ¶ 39).
The Parties dispute exactly how far Mrs. Teel was
from Defendant Lozada when he began shooting. (DE
29 at ¶ 16). Defendant Lozada testified he could not
recall how many steps Mrs. Teel made before he
discharged his weapon. (Exhibit A, Lozada deposition,
113:25 - 114:4). Defendant Lozada makes no claims
about the size of the bedroom, but only indicates that
this was the “master bedroom.” (DE 29 at ¶ 1).
Defendant Lozada also makes no claims about how
quickly Mrs. Teel was walking.
Mr. Teel now brings this case against Defendant
Lozada in his individual capacity and Defendant Loar
in his official capacity seeking damages for violation of
Mrs. Teel’s Fourth and Fourteenth Amendment rights
under 42 U.S.C. §1983 and for violation of the Florida
Wrongful Death Act. (DE 1).
STANDARD
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).

App. 25
“Genuine disputes are those in which the evidence is
such that a reasonable jury could return a verdict for
the non-movant.” Ellis v. England, 432 F.3d 1321,
1325-26 (11th Cir. 2005). “For factual issues to be
considered genuine, they must have a real basis in the
record.” Id. at 1326 (internal citation omitted). “For
instance, mere conclusions and unsupported factual
allegations are legally insufficient to defeat a summary
judgment motion.” Id. (internal citation omitted).
“Moreover, statements in affidavits that are based, in
part, upon information and belief, cannot raise genuine
issues of fact, and thus also cannot defeat a motion for
summary judgment.” Id. (internal citations omitted).
The movant “always bears the initial responsibility
of informing the district court of the basis for its
motion, and identifying those portions of ‘the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits, if any,’ which it
believes demonstrate the absence of a genuine issue of
material fact.” Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986) (quoting Fed. R. Civ. P. 56(c)(1)(A)). “When
the nonmoving party has the burden of proof at trial,
the moving party is not required to ‘support its motion
with affidavits or other similar material negating the
opponent’s claim,’ in order to discharge this ‘initial
responsibility.’” United States v. Four Parcels of Real
Prop. in Greene & Tuscaloosa Ctys. in State of Ala., 941
F.2d 1428, 1437–38 (11th Cir. 1991). “Instead, the
moving party simply may ‘show’—that is, point out to
the district court—that there is an absence of evidence
to support the nonmoving party’s case.” Id. at 1438
(citation omitted). “Alternatively, the moving party
may support its motion for summary judgment with

App. 26
affirmative evidence demonstrating that the
nonmoving party will be unable to prove its case at
trial.” Id. (citation omitted). “If the moving party shows
the absence of a triable issue of fact by either method,
the burden on summary judgment shifts to the
nonmoving party, who must show that a genuine issue
remains for trial.” Id. (citation omitted). “If the
nonmoving party fails to ‘make a sufficient showing on
an essential element of her case with respect to which
she has the burden of proof,’ the moving party is
entitled to summary judgment.” Id. (citation omitted).
At the summary judgment stage, courts construe the
facts in the light most favorable to the non-movant, and
any doubts should be resolved against the moving
party. Davis v. Williams, 451 F.3d 759, 761 (11th Cir.
2006); Adickes v. S.H. Kress & Co., 398 U.S. 144, 157
(1970).
DISCUSSION
A. Count I: Excessive Use of Force
Plaintiff alleges that Defendant Lozada violated
Mrs. Teel’s Fourth Amendment rights by using
excessive force against her. The Fourth Amendment
guarantees the right to be free from unreasonable
searches and seizures by the government. Under the
Fourth Amendment, a seizure occurs when an officer,
“by means of physical force or show of authority, has in
some way restrained the liberty of a citizen.” Roberts v.
Spielman, 643 F.3d 899, 905 (11th Cir. 2011) (quoting
Terry v. Ohio, 392 U.S. 1, 19 n. 16 (1968)). Thus, the
Fourth Amendment’s freedom from unreasonable
seizures encompasses the right to be free from the use
of excessive force in the course of police intervention in

App. 27
a potential suicide situation. See Mercado v. City of
Orlando, 407 F.3d 1152, 1156–57 (11th Cir. 2005)
(analyzing the police killing of a suicidal victim as a
“seizure” under the Fourth Amendment).
Excessive use of force claims are analyzed under the
Fourth Amendment’s “objective reasonableness”
standard. Graham v. Connor, 490 U.S. 386, 388 (1989).
“Determining whether the force used to effect a
particular seizure is ‘reasonable’ under the Fourth
Amendment requires a careful balancing of the ‘nature
and quality of the intrusion on the individual’s Fourth
Amendment interests’ against the countervailing
governmental interests at stake.” Id. at 395 (citation
omitted). “The test of reasonableness under the Fourth
Amendment is not capable of precise definition or
mechanical application.” Id. (citation omitted). Instead,
“its proper application requires careful attention to the
facts and circumstances of each particular case,
including the severity of the crime at issue, whether
the suspect poses an immediate threat to the safety of
the officers or others, and whether he is actively
resisting arrest or attempting to evade arrest by flight.”
Id. (citation omitted).
“The ‘reasonableness’ of a particular use of force
must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Id. (citation omitted). “The calculus of
reasonableness must embody allowance for the fact
that police officers are often forced to make split-second
judgments—in circumstances that are tense, uncertain,
and rapidly evolving—about the amount of force that is
necessary in a particular situation.” Id. at 396–97.

App. 28
The constitutionality of Defendant Lozada’s actions
are resolved on the basis of the agreed testimony. In
Defendant’s Statement of Material Facts, the shooting
is described as follows:
Mrs. Teel continues to advance and says “Come
on, just do it.” During this time, Deputy Lozada
starts retreating. He sees Mrs. Teel continue to
approach him with the raised knife. Feeling that
he is in imminent danger of being injured or
killed, he fires his gun at her, striking her.
However, she continues to approach. He then
fires a second round which also strikes her, but
she continues to approach. By this time, Deputy
Lozada had backed up into the doorway of the
master bedroom and then out into an adjacent
sitting room located at the top of the stairs. At
this point, he shoots Mrs. Teel a third and final
time which causes her to collapse in the doorway
of the master bedroom.
(DE 29 at ¶ 16) (emphasis added) (citations
omitted). In response to Defendant’s statement in
paragraph 16, Plaintiff responds:
Disputed as to Lozada’s claim that he was in
imminent danger. Lozada admits there was no
zone of danger before he came upstairs. And
Lozada admits he did not believe his life was in
danger before he came into her nedroom [sic]
with his gun drawn, after which, she started
moving towards him. Lozada never told Mrs.

App. 29
Teel to drop the knife prior to discharging his
firearm three times. Lozada never gave her a
warning.
Perhaps given that Defendant Lozada was the only
living person to see these events occur and was not
wearing a body camera there could be room for doubt.
However, this court is bound by the facts on which the
Parties have agreed. On a motion for summary
judgment, this court must accept as true material facts
which are not disputed. See generally, Celotex Corp. v.
Catrett, 477 U.S. at 323.
Here, Plaintiff does not in any way dispute that
Mrs. Teel continued to walk towards Defendant with a
knife before each shot that Defendant Lozada fired.
Even construing these facts in the light most favorable
to Plaintiff, this is a central admission to the
disposition of this case; Fourth Amendment excessive
force cases often turn on whether the victim was
moving towards the officer, particularly if the
individual is armed.
For example, in Clawson v. Rigney, where the
Eleventh Circuit affirmed the denial of the officer’s
motion for summary judgment, the court devoted
considerable attention to the direction in which
decedent was moving:
Nor does the footage show [the decedent]
running directly toward [the officer] in a manner
that suggested he intended to attack him. He
appears to have been moving away from the
group of officers in pursuit of him, not
purposefully charging at [the officer]. . . [the

App. 30
decedent] was running past [the officer], not
charging toward him and placing him in
imminent danger.
Clawson v. Rigney, No. 18-12150, 2019 WL 2480304,
at *4 (11th Cir. June 13, 2019). Similarly, in Mercado
v. City of Orlando, the Eleventh Circuit found that the
shooting of a suicidal man violated the constitution
because, at the time he was shot, the decedent “was not
actively resisting arrest, and there is no evidence that
he struggled with the police.” Mercado v. City of
Orlando, 407 F.3d 1152, 1157 (11th Cir. 2005).
The Parties agree that Mrs. Teel was verbally
engaging with Defendant Lozada, saying “Come on, do
it” and at each relevant instance continued to
“approach” him. Given these agreed facts, a reasonable
jury could not find that Mrs. Teel was doing anything
other than walking at Defendant Lozada. (DE 29 at
¶ 15, 16).
Further, Plaintiff does not dispute that as Mrs. Teel
walked towards Defendant Lozada, she kept the knife
in her hand the entire time. McKinney by McKinney v.
DeKalb Cty., Ga., 997 F.2d 1440, 1443 (11th Cir. 1993)
(affirming denial of qualified immunity where decedent
had “previously put down his knife”). So long as Mrs.
Teel was holding the knife the entire time, the position
of the weapon did not matter. Shaw v. City of Selma,
884 F.3d 1093, 1100 (11th Cir. 2018) (finding it
immaterial whether a hatchet was held by the
decedent’s “side, behind his back, or above his head”
before deadly force was used);

App. 31
Finally, neither Party disputes that this shooting
took place in and immediately outside Mrs. Teel’s
bedroom. While the exact number of feet are disputed,
even taking the facts in the light most favorable to
Plaintiff, there can be no doubt that Mrs. Teel was
relatively close to Defendant Lozada.
Further, although the Parties agree that Defendant
Lozada failed to issue a warning, “an officer’s failure to
issue a seemingly feasible warning—at least, to a
person appearing to be armed—does not, in and of
itself, render automatically unreasonable the use of
deadly force.” Quiles v. City of Tampa Police Dep’t, 596
F. App’x 816, 820 (11th Cir. 2015).
This case bears a substantial similarity to Collar v.
Austin, another tragic case involving a police killing. In
Collar, the Eleventh Circuit affirmed summary
judgment in favor of an officer who killed a student at
the University of Southern Alabama. There, the
decedent was similarly weak; he was a “naked,
unarmed, impaired minor.” Collar v. Austin, No. CV
14-0349-WS-B, 2015 WL 5444347, at *12 (S.D. Ala.
Sept. 15, 2015), aff’d, 659 F. App’x 557 (11th Cir. 2016).
The decedent was also similarly insistent that the
officer shoot and kill him; his only words were, “Shoot
me” and “Kill me.” Id. at *12. He also never reached for
the officer or his gun. Id.
Based on this behavior, Plaintiff’s counsel argued
that the decedent was “a threat only to himself.” Id.
Indeed, actions that show a person wants to be shot
and killed seem to suggest that they have no interest in
hurting the officer. However, the Eleventh Circuit
found otherwise, reasoning that although judges might

App. 32
consider an officer’s actions to be unreasonable “from
the comfort and safety of our chambers . . . [w]e must
see the situation through the eyes of the officer on the
scene who is hampered by incomplete information and
forced to make a split-second decision between action
and inaction in circumstances where inaction could
prove fatal.” Collar v. Austin, 659 F. App’x 557, 560
(11th Cir. 2016) (quotations omitted).
Further, the officer in Collar never issued a
warning before shooting the minor in the abdomen. Id.
at *13. And the Eleventh Circuit found that a jury
could conclude that seconds before the defendant fired,
he knew that another officer was nearby. Collar, 659 F.
App’x at 559. Neither of these facts swayed the court’s
reasoning.
While Collar was analyzed for a violation of clearly
established law, rather than a violation of the Fourth
Amendment, the lower court found, and the Eleventh
Circuit did not dispute, that “the evidence viewed most
favorably to the plaintiffs fails to support the
proposition that Collar posed no threat of death or
serious injury to the defendant.” Collar, No. CV 140349-WS-B, 2015 WL 5444347 at *12. If an individual
posed a threat of death or serious bodily harm, then the
use of force against them is constitutional. While Collar
does not mandate a finding that Defendant Lozada’s
actions did not violate the constitution, given the
considerable similarity to the facts of the present case,
2
Collar provides significant support.

2

While similar, there are significant differences between the
present case and Collar. For instance, in Collar the Eleventh

App. 33
Based on the agreed facts and applicable precedent,
I find that Defendant Lozada did not violate the
constitution and thus there is no need for me to discuss
the issue of qualified immunity. Had Mrs. Teel stopped
walking after any shot, or had she dropped the knife at
any point, I might reach a different conclusion, but
based on the agreed facts, a reasonable officer would be
justified in using deadly force. While I deeply
sympathize with the Teel family, I must apply the law
as it stands. Therefore, summary judgment is granted
for Defendant Lozada as to Count I.
B. Count IV: Wrongful Death
In Count IV, Plaintiff alleges that Defendant
Lozada is liable for Ms. Teel’s wrongful death pursuant
to Florida’s Wrongful Death Act, Florida Statute
§ 768.19. (DE 1 at ¶ 90). Defendant Lozada argues that
he is entitled to summary judgment on Count IV
because the force used was not excessive as a matter of
law and therefore was not wrongful. Florida Statute
§ 776.05 allows an officer to use any force reasonably
necessary to defend himself or others from bodily harm
while making an arrest. Ansley v. Heinrich, 925 F.2d
1339, 1343 (11th Cir. 1991). “[A] presumption of good
faith attaches to an officer’s use of force in making a

Circuit engages in a fact-intensive analysis before determining
that “a reasonable officer could have concluded that there was not
time to attempt to stop the charge with pepper spray,” while here
a reasonable jury could find that Defendant Lozada had time to
use pepper spray. Collar v. Austin, 659 F. App’x at 559. However,
given the presence of a knife in this case, I find that a reasonable
officer could have concluded that pepper spray would provide
insufficient protection.

App. 34
lawful arrest and an officer is liable for damages only
where the force used is clearly excessive.” City of
Miami v. Sanders, 672 So. 2d 46, 47 (Fla. 3d DCA
1996).3
For the reasons explained in the previous section, I
find that Defendant Lozada’s use of force was not
excessive. Sullivan v. City of Pembroke Pines, 161 F.
App’x 906, 911 (11th Cir. 2006) (noting that the Fourth
Amendment excessive force analysis is “similar [to the]
standard set forth under Florida law”).
C. Count II: Monell Claim
In Count II, Plaintiff alleges that Defendant Loar
violated Mrs. Teel’s Fourth and Fourteenth
Amendment right in that, among things, he “failed to
adequately train or otherwise supervise and direct
[Indian River County Sheriff’s Office (“IRSCO”)] and its
deputy sheriffs concerning the rights of the citizens
they encounter in their duties,” and “failed to direct . . .
the proper investigation of the extreme and wanton
acts of his deputy sheriffs.” (DE 1 at ¶ 67-79).
“Ordinarily, a governmental entity cannot be held
liable for the unconstitutional actions of its employees
under 42 U.S.C. § 1983.” Simmons v. Bradshaw, 879
F.3d 1157, 1173 (11th Cir. 2018). “However, a
governmental entity can be held liable if a plaintiff can

3

This statute has been applied to seizures even if the officer is not
actually attempting to affect an arrest. Mighty v. Miami-Dade Cty.,
No. 14-23285-CIV, 2017 WL 5203001, at *5 (S.D. Fla. Apr. 18,
2017) (discussing the reasonableness of force under § 776.05 even
though the victim “was not suspected of any crime”).

App. 35
show that the unconstitutional act at issue is a result
of a policy or custom promulgated by the entity.” Id.
(citing Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
690–91 (1978)).
To succeed on a Monell claim, “a plaintiff must
show: (1) that his constitutional rights were violated;
(2) that the municipality had a custom or policy that
constituted deliberate indifference to that
constitutional right; and (3) that the policy or custom
caused the violation.” McDowell v. Brown, 392 F.3d
1283, 1289 (11th Cir. 2004) (citation omitted).
In Defendant Loar’s Statement of Material Facts, he
adopts Defendant Lozada’s Statement of Facts. (DE 41
at 1). In his response, Plaintiff incorporates his
Response in Opposition to Defendant Lozada’s
Statement of Material Facts in Support of Motion for
Summary Judgment. (DE 46 at ¶ 46). I found that
based on these facts there was no Fourth Amendment
violation.
Plaintiff also alleges that Mrs. Teel’s Fourteenth
Amendment rights were violated including “the right to
liberty, the right to be free from use of excessive force,
and those fundamental rights of due process, liberty
and life as guaranteed by the Constitution.” (DE 1 at
58). Plaintiff does not expound upon these allegations
in response to Defendant Loar’s Motion for Summary
Judgment. (DE 45). However, where the Constitution
“provides an explicit textual source of constitutional
protection” for the violation alleged, such as the Fourth
Amendment, the court should apply the analysis that
constitutional provision requires, rather than the
analysis dictated by “the more generalized notion of

App. 36
substantive due process.” Graham, 490 U.S. at 395.
Thus, as this is an excessive force inquiry under the
Fourth Amendment, the Fourth Amendment analysis
is controlling. Therefore, as there is no constitutional
violation, summary judgment is granted for Defendant
Loar as to Count II.
D. Count III: Wrongful Death
Plaintiff alleges that Defendant Loar violated the
Florida Wrongful Death Act by negligently retaining
Defendant Lozada, negligently allowing him to
“interact with members of the public in potentially
volatile situations,” and negligently allowing him to be
the “first responder in an emotionally charged situation
in light of his known inability to handle highly
emotionally charged situations.” (DE 1 at ¶ 86). As
explained in Delaurentos v. Peguero,
Florida cases distinguish between (a) acts
committed within the scope and course of
employment, and (b) acts committed outside the
scope of employment. In the first situation,
where acts were committed within the course
and scope of employment, the basis of employer
liability is respondeat superior. As to [respondeat
superior] the negligence of the employer is
immaterial since this Court is committed to the
rule that if the employee is not liable, the
employer is not liable.
47 So. 3d 879, 882 (Fla. Dist. Ct. App. 2010) (quoting
Mallory v. O’Neil, 69 So.2d 313, 315 (Fla.1954)).
Plaintiff concedes that Defendant Loar was acting
within the scope of his employment when he shot Mrs.

App. 37
Teel. (DE 1 at ¶ 81). As previously discussed,
Defendant Lozada is not liable; therefore, Defendant
Loar is not liable. Thus, Defendant Loar’s Motion for
Summary Judgment as to Count III is granted.
CONCLUSION
Upon careful consideration of the Parties’ written
submissions, the record, and applicable law pertaining
to the claims at issue, it is hereby ORDERED AND
ADJUDGED that
1) Defendant Lozada’s Motion for Summary
Judgment as to Counts I and IV (DE 29) is
GRANTED.
2) Defendant Loar’s Motion for Summary
Judgment as to Counts II and III (DE 40) is
GRANTED.
3) Final judgment will be entered by separate
Order.
SIGNED in Chambers at West Palm Beach,
Florida, this 17th day of October, 2019.

/s/ Donald M. Middlebrooks
Donald M. Middlebrooks
United States District Judge

Copies to: Counsel of Record

App. 38

APPENDIX C
UNITED STATES DISTRICT
SOUTHERN DISTRICT OF FLORIDA
Case No. 18-14367-CIV-MIDDLEBROOKS/
BRANNON
[Filed: October 17, 2019]
_______________________________________
DUDLEY TEEL, as Personal
)
Representative of the Estate of
)
SUSAN TEEL, deceased,
)
)
Plaintiff,
)
)
v.
)
)
DEPUTY SHERIFF JONATHAN
)
LOZADA, in his individual capacity,
)
and SHERIFF DERYL LOAR, in his
)
individual and official capacities,
)
)
Defendants.
)
_______________________________________)
FINAL JUDGMENT
THIS CAUSE is before the Court pursuant to this
Court’s previous Order Granting Defendants’ Motions
for Summary Judgment. (DE 59). Final judgment is
entered pursuant to Federal Rule of Civil Procedure 58,
as set forth below.

App. 39
It is hereby ORDERED and ADJUDGED that:
(1)

Final Judgment is entered in favor of
Defendant Jonathan Lozada, and against
Plaintiff Dudley Teel as to Count I and Count
IV.

(2)

Final Judgment is entered in favor of
Defendant Deryl Loar and against Plaintiff
Dudley Teel as to Count II and Count III.

SIGNED in Chambers at West Palm Beach,
Florida, this 17th day of October, 2019.

/s/ Donald M. Middlebrooks
Donald M. Middlebrooks
United States District Judge

Copies to: Counsel of Record

App. 40

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14530-AA
[Filed: November 18, 2020]
__________________________________________
DUDLEY TEEL,
)
)
Plaintiff - Appellant,
)
)
versus
)
)
DEPUTY SHERIFF JONATHAN
)
LOZADA, in his individual capacity,
)
SHERIFF DERYL LOAR,
)
in his individual and official capacities,
)
)
Defendants - Appellees. )
__________________________________________)
Appeal from the United States District Court
for the Southern District of Florida
ON PETITION(S) FOR REHEARING
PETITION(S) FOR REHEARING EN BANC

AND

BEFORE: MARTIN, ROSENBAUM and JILL PRYOR,
Circuit Judges.
PER CURIAM:

App. 41
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)

